No. 19AIn the
SUPREME COURT OF THE UNITED STATES
October Term 2019
INTEL CORPORATION, IBIDEN U.S.A. CORPORATION, AND
IBIDEN COMPANY LIMITED,
Applicants / Petitioners,
v.

CONTINENTAL CIRCUITS LLC,
Respondent.
CERTIFICATE OF SERVICE

I, Donald B. Verrilli, Jr., a member of the Supreme Court Bar, hereby certify
that three (3) copies of the Application for an Extension of Time Within Which
to File a Petition for a Writ of Certiorari to the United States Court of
Appeals for the Federal Circuit were served on:
Jeffrey A. Lamken
MoloLamken LLP
600 New Hampshire Avenue NW
Washington, DC 20037
Service was made by United States Postal Service first-class mail on August
27, 2019.
DONALD B. VERRILLI JR.
MUNGER, TOLLES & OLSON LLP
1155 F. Street, NW, 7th Floor
Washington, DC 20004
(202) 220-1100
donald.verrilli@mto.com
Counsel for Applicants

